                          U.S. Department of Agriculture

                             Office of Inspector General
                              Financial & IT Operations




               Audit Report

 Fiscal Year 2005 – Review of the Office of the
Chief Financial Officer/National Finance Center
               General Controls




                                Report No. 11401-22-FM
                                        November 2005
                        UNITED STATES DEPARTMENT OF AGRICULTURE

                                   OFFICE OF INSPECTOR GENERAL

                                        Washington D.C. 20250


November 15, 2005



REPLY TO
ATTN OF:       11401-22-FM

TO:            Patricia E. Healy
               Acting Chief Financial Officer
               Office of the Chief Financial Officer

THROUGH: Kathleen A. Donaldson
         Senior Program Analyst
         Office of the Chief Financial Officer
         Planning and Accountability Division

FROM:          Robert W. Young       /s/
               Assistant Inspector General
                for Audit

SUBJECT:       Fiscal Year 2005 – Review of the Office of the Chief Financial Officer/National
               Finance Center General Controls


This report presents the results of our review of the internal controls at the Office of the Chief
Financial Officer/National Finance Center (OCFO/NFC) as of July 30, 2005. The audit was
conducted in accordance with Government Auditing Standards issued by the Comptroller
General of the United States including the American Institute of Certified Public Accountants
Professional Standards AU Sections 316, 319, and 324 as amended by applicable Statements on
Auditing Standards (SAS), commonly referred to as a SAS 70 audit. The report contains a
qualified opinion on the control objectives and techniques of OCFO/NFC (as identified by the
center and documented in exhibit A to this report) during the period October 1, 2004, through
July 30, 2005. Subsequent to July 30, 2005, OCFO/NFC officials asserted that they believed
compensating controls have been implemented to mitigate the weaknesses we reported.
However, due to the effects of Hurricane Katrina, we were unable to evaluate the effectiveness
of the compensating controls; therefore, we offer no opinion on the effectiveness of those
controls.

The accuracy and reliability of the data processed by OCFO/NFC and the resultant reports
ultimately rests with the customer agency and any accompanying compensating controls
implemented by such agency. The projections of any conclusions based on our audit findings to
future periods are subject to the risk that changes may alter the validity of such conclusions.
This report is intended solely for the management of OCFO/NFC, its customer agencies, and
their auditors.

We appreciate the courtesies and cooperation extended to us during the audit.
Subsequent to July 30, 2005, OCFO/NFC officials asserted that they believed compensating controls
have been implemented to mitigate the weaknesses we reported. However, due to the effects of
Hurricane Katrina, we were unable to evaluate the effectiveness of the compensating controls;
therefore, we offer no opinion on the effectiveness of those compensating controls. It is important to
note that while various management, manual, and reconciliation controls help detect potential
irregularities or improprieties, these types of compensating controls are not preventative controls.
Thus the vulnerabilities we noted increase the risks of inappropriate disclosure and modification of
sensitive data, destruction of data, or misuse or damage of computer resources.

The scope of this engagement did not include tests to determine whether control objectives not listed in
exhibit A were achieved; accordingly, we express no opinion on achievement of controls not included
in exhibit A. Further, the scope of this engagement did not include tests to determine whether control
objectives were achieved subsequent to the natural disaster of Hurricane Katrina; accordingly, we
express no opinion on the service center descriptions or achievement of control objectives subsequent
to August 25, 2005. The OCFO/NFC service center description during its recovery efforts and
subsequent operations is included as exhibit B.

This information is provided to user organizations of OCFO/NFC and their auditors to be taken into
consideration, along with information about the internal control structures at user organizations, when
making assessments of control risk for user organizations. The relative effectiveness and significance
of specific controls at OCFO/NFC and their effect on assessments of control risk at user organizations
are dependent on their interaction with the controls and other factors present at individual user
organizations. We have performed no procedures to evaluate the effectiveness of controls at individual
user organizations.

The description of policies and procedures at OCFO/NFC is as of July 30, 2005, and covers the period
from October 1, 2004, through July 30, 2005. Any projections of such information to the future are
subject to the risk that, because of change, they may no longer portray the system in existence. The
potential effectiveness of specific policies and procedures at OCFO/NFC is subject to inherent
limitations and, accordingly, errors or irregularities may occur and not be detected. The projections of
any conclusions, based on our findings, to future periods are subject to the risk that changes may alter
the validity of such conclusions. Furthermore, the accuracy and reliability of data processed by
OCFO/NFC and the resultant reports ultimately rests with the user agency and any compensating
controls implemented by such agency.

This report is intended solely for the management of OCFO/NFC, its customer agencies, and their
auditors.


/s/

ROBERT W. YOUNG
Assistant Inspector General
 for Audit

July 30, 2005

USDA/OIG-AUDIT/11401-22-FM                                                                       Page 4
